                                                              O FFICE OF A UDIT S ERVICES , R EGION IX
                                                                         90 - 7 T H S TREET, S UITE 3-650
                                                                          S AN F RANCISCO , CA 94103
May 22, 2012

Report Number: A-09-11-02047

Ms. Patricia McManaman
Director
Department of Human Services
State of Hawaii
1390 Miller Street, Room 209
Honolulu, HI 96813-2936

Dear Ms. McManaman:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Hawaii Claimed Unallowable Medicaid Reimbursement for
Nonemergency Medical Transportation Services Furnished by Taxi Providers. We will forward
a copy of this report to the HHS action official noted on the following page for review and any
action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Doug Preussler, Audit Manager, at (415) 437-8360 or through email at
Doug.Preussler@oig.hhs.gov. Please refer to report number A-09-11-02047 in all
correspondence.

                                             Sincerely,


                                             /Lori A. Ahlstrand/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Patricia McManaman


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




HAWAII CLAIMED UNALLOWABLE
 MEDICAID REIMBURSEMENT FOR
   NONEMERGENCY MEDICAL
  TRANSPORTATION SERVICES
 FURNISHED BY TAXI PROVIDERS




                       Daniel R. Levinson
                        Inspector General

                           May 2012
                         A-09-11-02047
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Federal regulations require each State to ensure that Medicaid recipients have necessary
transportation to and from medical providers and to describe in the State plan the methods that
the State will use to meet this requirement. Federal regulations define transportation expenses as
costs for transportation that the State Medicaid agency deems necessary to secure medical
examinations and treatment for a Medicaid recipient. The State may claim Federal
reimbursement for the costs of these services, commonly known as nonemergency medical
transportation (NEMT) services.

In Hawaii, the Department of Human Services (State agency) administers the Medicaid program.
NEMT services are provided by various transportation companies, including taxi providers, for
transportation to medical destinations. Taxi providers submit invoices supported by taxi trip
records to the State agency’s Fiscal Management Office, which then processes voucher payments
to the providers. (One NEMT voucher may consist of one or more invoices and taxi trip
records.) The State agency claims Federal reimbursement on the Centers for Medicare &
Medicaid Services’ Form CMS-64 for voucher payments made to taxi providers.

According to the Hawaii Administrative Rules, payments for medical taxi services shall be made
on the basis of metered rates charged to the public. These rules also state that payments for
goods, care, and services shall be made only to providers that the State agency approved to
participate in the Hawaii Medicaid program.

During the period January 1, 2007, through December 31, 2009, the State agency claimed
$5,555,859 ($3,170,758 Federal share) for NEMT services furnished by taxi providers in Hawaii,
representing 1,409 voucher payments. From 1,216 voucher payments totaling $4,856,948, we
reviewed a random sample of 34 voucher payments, consisting of 914 taxi trips. We separately
reviewed the remaining 193 voucher payments, totaling $698,911, because the claims were
related to an unapproved provider or were covered under a settlement agreement that exempted
the provider from certain State regulations.

OBJECTIVE

Our objective was to determine whether the State agency complied with Federal and State
requirements when claiming Federal Medicaid reimbursement for NEMT services furnished by
taxi providers.

SUMMARY OF FINDINGS

The State agency did not always comply with Federal and State requirements when claiming
Federal Medicaid reimbursement for NEMT services furnished by taxi providers. Specifically,
the State agency improperly claimed $494,903 (Federal share):




                                                i
   •   For the 914 taxi trips reviewed, the State agency properly claimed Federal reimbursement
       for 100 taxi trips. However, the remaining 814 taxi trips, totaling $4,443, were entirely
       or partially unallowable for Federal reimbursement. Specifically, for 107 taxi trips, no
       Medicaid medical services were provided. In addition, for 707 taxi trips, the State
       agency claimed amounts in excess of metered rates charged to the public. (For each trip,
       we disallowed the difference between the metered rate and the amount claimed.) Based
       on our sample results, we estimated that the State agency claimed $403,217 in
       unallowable Federal reimbursement.

   •   For the 193 voucher payments totaling $698,911 that we reviewed separately, the State
       agency claimed $91,686 in unallowable Federal reimbursement for (1) payments made to
       a taxi provider that was not approved to participate in the Hawaii Medicaid program or
       (2) untimely submission of invoices related to a settlement agreement between the State
       agency and a taxi provider. The agreement required the provider to submit invoices no
       later than 90 days after the date of the agreement.

The State agency claimed unallowable NEMT services because it did not have adequate policies
and procedures to ensure compliance with all Federal and State requirements for NEMT services.

In addition, the State agency did not correctly report on the Form CMS-64 the amount of taxi
expenditures that were eligible for Federal reimbursement. The State agency did not specifically
identify and exclude expenditures for taxi trips that were State-funded, such as taxi trips
provided to recipients not eligible for Medicaid. Instead, the State agency reduced its claim for
Federal reimbursement by a calculated estimate for the State-funded portion. According to
42 CFR § 430.30(c), the disposition of Federal funds may not be reported on the basis of
estimates. The State agency lacked internal controls to properly account for State-funded taxi
expenditures when claiming Federal reimbursement for NEMT services.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund to the Federal Government $494,903 (Federal share) for unallowable NEMT
       services,

   •   strengthen policies and procedures to ensure compliance with Federal and State
       requirements for NEMT services, and

   •   establish internal controls to properly account for State-funded taxi expenditures when
       claiming Federal reimbursement for NEMT services.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our findings. The State
agency described actions that it had taken or planned to take to address our recommendations.
The State agency’s comments are included in their entirety as Appendix C.


                                                ii
                                                  TABLE OF CONTENTS

                                                                                                                            Page

INTRODUCTION..............................................................................................................1

          BACKGROUND .....................................................................................................1
              Medicaid Program ........................................................................................1
              Nonemergency Medical Transportation Services ........................................1
              Hawaii’s Nonemergency Medical Transportation Program ........................1

          OBJECTIVE, SCOPE, AND METHODOLOGY ...................................................2
               Objective ......................................................................................................2
               Scope ............................................................................................................2
               Methodology ................................................................................................2

FINDINGS AND RECOMMENDATIONS ....................................................................4

          UNALLOWABLE AND PARTIALLY UNALLOWABLE
           REIMBURSEMENT FOR TAXI TRIPS .............................................................5
               No Medicaid Medical Services Provided ....................................................5
               Billings in Excess of Metered Rates ............................................................5

          UNAPPROVED TAXI PROVIDER AND UNTIMELY SUBMISSION
           OF INVOICES ......................................................................................................6
                Unapproved Taxi Provider ...........................................................................6
                Untimely Submission of Invoices Covered Under a
                 Settlement Agreement ...............................................................................6

          INCORRECT FEDERAL REPORTING OF TAXI EXPENDITURES .................7

          RECOMMENDATIONS .........................................................................................7

          STATE AGENCY COMMENTS ............................................................................8

OTHER MATTER: LACK OF CONTROLS TO PREVENT OR DETECT
 DUPLICATE PAYMENTS............................................................................................8

APPENDIXES

          A: SAMPLE DESIGN AND METHODOLOGY

          B: SAMPLE RESULTS AND ESTIMATES

          C: STATE AGENCY COMMENTS




                                                                    iii
                                      INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

Pursuant to section 1905(b) of the Act, the Federal Government pays its share of a State’s
medical assistance expenditures under Medicaid based on the Federal medical assistance
percentage (FMAP), which varies depending on the State’s relative per capita income. States
with a lower per capita income relative to the national average are reimbursed a greater share of
their costs. States with a higher per capita income are reimbursed a lesser share. By law, the
FMAPs may not be lower than 50 percent. Although FMAPs are adjusted annually for economic
changes in the States, Congress may increase FMAPs at any time.

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5, enacted
February 17, 2009, authorized the States to receive higher FMAPs. The FMAPs for Hawaii’s
Medicaid expenditures for calendar years 2007 through 2009 ranged from 55.11 percent to
67.35 percent.

Nonemergency Medical Transportation Services

Federal regulations (42 CFR § 431.53) require each State to ensure that Medicaid recipients have
necessary transportation to and from medical providers and to describe in the State plan the
methods that the State will use to meet this requirement. Federal regulations (42 CFR § 440.170)
define transportation expenses as costs for transportation that the State Medicaid agency deems
necessary to secure medical examinations and treatment for a Medicaid recipient. The State may
claim Federal reimbursement for the costs of these services, commonly known as nonemergency
medical transportation (NEMT) services.

Hawaii’s Nonemergency Medical Transportation Program

In Hawaii, the Department of Human Services (State agency) administers the Medicaid program.
NEMT services are provided by various transportation companies, including taxi providers, for
transportation to medical destinations. Taxi providers submit invoices supported by taxi trip
records to the State agency’s Fiscal Management Office (FMO), which then processes voucher
payments to the providers. (One NEMT voucher may consist of one or more invoices and taxi
trip records.) The State agency claims Federal reimbursement on CMS’s Form CMS-64 for
voucher payments made to taxi providers.



                                               1
The Hawaii Administrative Rules (HAR), Title 17, sections 1737-82 and 1739.1-9, describe the
State agency’s policies concerning intrastate NEMT services for Medicaid recipients:

   •    HAR § 17-1737-82(a) states that transportation may be provided to enable a recipient to
        secure needed medical care and related services.

   •    HAR § 17-1739.1-9(d) states that payments for medical taxi services shall be by purchase
        order issued by the State agency and only on trips to or from a physician’s office, a clinic,
        a hospital, or an airport (for covered medical transportation) and the patient’s home.
        Reimbursement for these services is limited as follows: (1) no detours or side trips shall
        be permitted; (2) the amount of payment shall be made on the basis of metered rates
        charged to the public; and (3) payments shall not include compensation for the driver’s
        waiting time at the clinic, hospital, or physician’s office or at the location of other
        providers of medical services.

According to HAR § 17-1736-15, payments for goods, care, and services shall be made only to
providers approved by the State agency to participate in the Hawaii Medicaid program.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency complied with Federal and State
requirements when claiming Federal Medicaid reimbursement for NEMT services furnished by
taxi providers.

Scope

During the period January 1, 2007, through December 31, 2009, the State agency claimed
$5,555,859 ($3,170,758 Federal share) for NEMT services furnished by taxi providers in Hawaii,
representing 1,409 voucher payments. From 1,216 voucher payments totaling $4,856,948, we
reviewed a random sample. We separately reviewed the remaining 193 voucher payments,
totaling $698,911.

We did not review the State agency’s overall internal control structure because our objective did
not require us to do so. We limited our review of internal controls to those controls related
directly to processing NEMT claims and monitoring NEMT services.

We conducted fieldwork at the State agency’s offices in Honolulu, Hawaii.

Methodology

To accomplish our objective, we:

   •    reviewed Federal laws and regulations, State regulations, and the State plan;



                                                  2
    •   held discussions with CMS and State agency officials to gain an understanding of the
        Medicaid NEMT program and how the State agency administers and monitors the
        program;

    •   reviewed the FMO’s practice of processing taxi voucher payments outside of the Hawaii
        Prepaid Medicaid Management Information System (HPMMIS);

    •   reviewed the State agency’s policies and procedures for determining taxi trip vouchers
        that are State-funded;

    •   reconciled line item 29, “Other Care Services,” on the Form CMS-64.9 for the period
        January 1, 2007, through December 31, 2009, 1 with the cost center code 2041 (Medical
        Ground Transportation Payments) expenditures processed by the FMO using the State’s
        Financial Accounting Management and Information System (FAMIS);

    •   identified 1,454 voucher payments under cost center code 2041 within the FAMIS, of
        which we excluded 45 voucher payments for (1) services not related to taxi trips in
        Hawaii and (2) reimbursements to Medicaid recipients for out-of-State ground
        transportation; 2

    •   selected from the sampling frame of 1,216 voucher payments a stratified multistage
        random sample of 34 voucher payments, consisting of 914 taxi trips;

    •   obtained and reviewed supporting documentation for the 914 sample taxi trips to validate
        the medical destinations and dates of the trips, including:

             o matching fee-for-service medical claims data from the HPMMIS and

             o sending out letters to medical providers who were identified on the sample taxi
               documentation to confirm that medical services were provided when no
               fee-for-service medical claims were found;

    •   reviewed the claimed taxi fare amounts to determine whether they were based on metered
        rates charged to the public; and

    •   estimated the unallowable Federal Medicaid reimbursement in the sampling frame of
        1,216 voucher payments.

See Appendix A for our sample design and methodology and Appendix B for our sample results
and estimates.

1
 For the quarter ended December 31, 2009, the line item 29 description changed to “Non-Emergency Medical
Transportation.”
2
  Of the remaining 1,409 voucher payments, we separately reviewed 193 voucher payments because the claims were
related to an unapproved provider or were covered under a legal agreement that exempted the provider from certain
State regulations.


                                                        3
During our audit, we identified 193 voucher payments totaling $698,911 that were for (1) claims
from a taxi provider who was not approved by the State agency to provide NEMT services,
totaling $149,461, or (2) untimely invoice submissions related to a settlement agreement between
the State agency and a taxi provider, totaling $549,450. We reviewed the voucher payments for
these two issues separately. Specifically, we:

   •   compared the taxi providers in our review with the State Medicaid provider listing to
       identify any taxi provider who was not approved by the State agency to participate in the
       Medicaid program during the audit period,

   •   reviewed the settlement agreement between the State agency and a taxi provider to verify
       that the provisions of the agreement were followed, and

   •   calculated the unallowable Federal Medicaid reimbursement.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

The State agency did not always comply with Federal and State requirements when claiming
Federal Medicaid reimbursement for NEMT services furnished by taxi providers. Specifically,
the State agency improperly claimed $494,903 (Federal share):

   •   For the 914 taxi trips reviewed, the State agency properly claimed Federal reimbursement
       for 100 taxi trips. However, the remaining 814 taxi trips, totaling $4,443, were entirely
       or partially unallowable for Federal reimbursement. Specifically, for 107 taxi trips, no
       Medicaid medical services were provided. In addition, for 707 taxi trips, the State
       agency claimed amounts in excess of metered rates charged to the public. (For each trip,
       we disallowed the difference between the metered rate and the amount claimed.) Based
       on our sample results, we estimated that the State agency claimed $403,217 in
       unallowable Federal reimbursement.

   •   For the 193 voucher payments totaling $698,911 that we reviewed separately, the State
       agency claimed $91,686 in unallowable Federal reimbursement for (1) payments made to
       a taxi provider that was not approved to participate in the Hawaii Medicaid program or
       (2) untimely submission of invoices related to a settlement agreement between the State
       agency and a taxi provider. The agreement required the provider to submit invoices no
       later than 90 days after the date of the agreement.

The State agency claimed unallowable NEMT services because it did not have adequate policies
and procedures to ensure compliance with all Federal and State requirements for NEMT services.



                                               4
In addition, the State agency did not correctly report on the Form CMS-64 the amount of taxi
expenditures that were eligible for Federal reimbursement. The State agency did not specifically
identify and exclude expenditures for taxi trips that were State-funded, such as taxi trips
provided to recipients not eligible for Medicaid. Instead, the State agency reduced its claim for
Federal reimbursement by a calculated estimate for the State-funded portion. According to
42 CFR § 430.30(c), the disposition of Federal funds may not be reported on the basis of
estimates. The State agency lacked internal controls to properly account for State-funded taxi
expenditures when claiming Federal reimbursement for NEMT services.

UNALLOWABLE AND PARTIALLY UNALLOWABLE
REIMBURSEMENT FOR TAXI TRIPS

For the 914 sample taxi trips reviewed, the State agency claimed Federal reimbursement for
814 taxi trips that were entirely or partially unallowable, totaling $4,443. Specifically, the State
agency claimed unallowable Federal reimbursement for 107 taxi trips where no Medicaid
medical services were provided. In addition, for 707 taxi trips, the State agency claimed partially
unallowable Federal reimbursement for billings in excess of metered rates charged to the public. 3
Based on our sample results, we estimated that the State agency claimed $403,217 in
unallowable Federal reimbursement.

No Medicaid Medical Services Provided

According to HAR § 17-1737-82(a), transportation may be provided to enable a recipient to
secure needed medical care and related services.

For 107 sample taxi trips, no Medicaid medical services were provided. For each of the trips
reviewed, we could not find a matching Medicaid fee-for-service medical claim nor could the
medical provider confirm that the sample recipient received Medicaid-eligible services on the
date of the NEMT taxi service. The State agency claimed unallowable NEMT services because
it did not have policies and procedures to ensure that Federal reimbursement was claimed only
for taxi trips where medical services were provided.

Billings in Excess of Metered Rates

According to HAR § 17-1739.1-9(d)(2), the amount of payment for NEMT services shall be
made on the basis of metered rates charged to the public.

For 707 sample taxi trips, the State agency claimed billings in excess of metered rates charged to
the public. Specifically, the State agency improperly claimed Hawaii general excise taxes
ranging from 4 percent to 4.712 percent. This tax should not have been applied to the invoiced

3
  There were a total of 803 taxi trips for which the State agency claimed unallowable Federal reimbursement for
billings in excess of metered rates charged to the public. However, for 96 of these taxi trips, no Medicaid medical
services were provided; therefore, we disallowed the entire amount. For the remaining 707 taxi trips, we determined
that Medicaid medical services were provided; therefore, we disallowed only the portion of the billings in excess of
the metered rates.



                                                         5
taxi fare charges because NEMT taxi providers are not allowed to bill more than the metered
rates charged to the public. 4 For each taxi trip, we disallowed the difference between the
metered rate and the amount claimed. The State agency claimed unallowable NEMT services
because it did not have policies and procedures to ensure that claims were limited to metered
rates charged to the public.

UNAPPROVED TAXI PROVIDER AND UNTIMELY SUBMISSION OF INVOICES

For the 193 voucher payments totaling $698,911 that we reviewed separately, the State agency
claimed $91,686 in unallowable Federal reimbursement for (1) payments made to a taxi provider
that was not approved to participate in the Hawaii Medicaid program or (2) untimely submission
of invoices related to a settlement agreement between the State agency and a taxi provider.

Unapproved Taxi Provider

According to HAR § 17-1736-15, payments for goods, care, and services shall be made only to
providers approved by the State agency to participate in the Hawaii Medicaid program.

The State agency claimed $84,698 in unallowable Federal Medicaid reimbursement for payments
made to Taxi Company A, which was not approved to participate in the Hawaii Medicaid
program during our audit period. Specifically, the company did not have a valid Medicaid
provider identification number. The State agency did not verify whether the taxi company was
an approved Medicaid NEMT provider before it made the payments. The State agency claimed
unallowable NEMT services because it did not have adequate policies and procedures to ensure
that taxi providers were approved Medicaid NEMT providers.

Untimely Submission of Invoices Covered Under a Settlement Agreement

According to HAR § 17-1739.1-16, Medicaid providers shall submit all claims for payment
within 12 months from providing care or services. However, a claim for a medical assistance
payment that is received by the State agency more than 12 months after the date of service may
be accepted and processed as a corrective action to resolve a dispute. The State agency and Taxi
Company B entered into a settlement agreement dated September 23, 2008, which specified that
claims for services filed more than 12 months after the date of service were to be submitted to
the State agency no later than 90 calendar days after the agreement date. 5


4
 The State agency issued memorandum ACS M09-16, “Non-Emergency Transportation Policy Adherence” (dated
July 7, 2009), to NEMT providers when it became aware that its NEMT policies were not being followed. The State
agency reiterated that its NEMT policies and procedures do not allow general excise tax to be paid as a separate,
additional cost because it is included in the taxi meter rate structure.
5
  Taxi Company B had outstanding claims for payment that had not been submitted within 12 months after the date
of service. On July 8, 2005, Taxi Company B requested a waiver of the requirement in HAR § 17-1739.1-16, which
the State agency denied on July 14, 2005. In lieu of an administrative hearing, the two parties agreed to the terms of
a settlement agreement, which allowed Taxi Company B to submit claims with dates of service more than 12 months
before the date of the agreement.



                                                          6
We reviewed Taxi Company B’s claims under the settlement agreement, totaling $549,450, and
identified $6,988 in unallowable Federal reimbursement related to untimely submission of
invoices to the State agency. Specifically, the invoice dates 6 were more than 90 calendar days
after the agreement date. We did not perform any other review of these claims because some
claims were dated as far back as 1994. The State agency claimed unallowable reimbursement
because it did not have procedures to ensure that claims were submitted in a timely manner under
the provisions of the settlement agreement.

INCORRECT FEDERAL REPORTING OF TAXI EXPENDITURES

According to 42 CFR § 430.30(c), the State agency must submit the Form CMS-64 to the
Federal Government, which is a report of the State’s accounting of actual recorded expenditures.
The disposition of Federal funds may not be reported on the basis of estimates.

The State agency did not correctly report on the Form CMS-64 the amount of taxi expenditures
that were eligible for Federal reimbursement. The FMO did not specifically identify and exclude
expenditures for taxi trips that were State-funded and thus ineligible for Federal reimbursement.

A taxi trip is State-funded when a provider transports a recipient who is not eligible for Medicaid
or transports a federally eligible recipient to a medical service not covered under Medicaid. At
the time of taxi voucher payment processing, the FMO did not verify that the recipient or
medical service was covered under Medicaid. As a result, the State agency could not determine
the proper amount of taxi voucher payments to claim for Federal reimbursement on the Form
CMS-64. Instead, the State agency recorded the voucher payments on the Form CMS-64 based
on the total taxi expenditures from the FAMIS electronic file system, reduced by a calculated
estimate for the State-funded portion. Because the State agency reported the amount of taxi
expenditures eligible for Federal reimbursement based on estimates, it was not in compliance
with Federal regulations.

The State agency lacked internal controls to properly account for State-funded taxi expenditures
when claiming Federal reimbursement for NEMT services.

RECOMMENDATIONS

We recommend that the State agency:

    •   refund to the Federal Government $494,903 (Federal share) for unallowable NEMT
        services,

    •   strengthen policies and procedures to ensure compliance with Federal and State
        requirements for NEMT services, and



6
  There was no date stamp on Taxi Company B’s submitted invoices documenting when the State agency received
the invoices. Because we were unable to determine the actual submission dates of the claims, we used the claim
invoice dates in determining whether the invoices were received in a timely manner.


                                                       7
   •   establish internal controls to properly account for State-funded taxi expenditures when
       claiming Federal reimbursement for NEMT services.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our findings. The State
agency described actions that it had taken or planned to take to address our recommendations.
The State agency’s comments are included in their entirety as Appendix C.

        OTHER MATTER: LACK OF CONTROLS TO PREVENT OR DETECT
                        DUPLICATE PAYMENTS

The FMO records taxi voucher payments in the FAMIS electronic payment transaction file,
which shows data fields such as invoice number, vendor name, voucher payment number,
voucher payment amount, and voucher payment date. However, a voucher payment may consist
of numerous vendor invoices, and a vendor invoice may consist of numerous individual taxi trip
records. Because the FAMIS payment file does not identify payment information at the level of
individual taxi trip records, the State agency does not have controls to prevent or detect duplicate
claims. We could not determine the extent of any payments for duplicate claims because we did
not conduct such a detailed review.




                                                 8
APPENDIXES
                                                                                       Page 1 of 3



                APPENDIX A: SAMPLE DESIGN AND METHODOLOGY

POPULATION

The population consisted of taxi trip reimbursements to Hawaii taxi providers that the Hawaii
Department of Human Services (State agency) claimed on the quarterly Form CMS-64 during
the period January 1, 2007, through December 31, 2009.

SAMPLING FRAME

The sampling frame consisted of voucher payments made to taxi vendors by the State agency’s
Fiscal Management Office (FMO). The FMO provided the voucher payments from the State
agency’s Financial Accounting Management and Information System (FAMIS) electronic
payment transaction file through the Data Mart application. The file contained 1,454 voucher
payments under the cost center code 2041 (Medical Ground Transportation Payments), totaling
$5,907,079. Of the 1,454 vouchers, we (1) excluded from our review 45 voucher payments that
were for services not related to taxi trips in Hawaii and reimbursements to Medicaid recipients
for out-of-State ground transportation and (2) separately reviewed 193 vouchers. Therefore, the
adjusted sampling frame consisted of 1,216 voucher payments totaling $5,035,558.

Our audit disclosed that the FMO processed taxi voucher payments without determining whether
the taxi trips were State-funded and thus ineligible for Federal reimbursement. (A taxi trip is
State-funded when a provider transports a recipient who is not eligible for Medicaid or transports
a federally eligible recipient to a medical service not covered under Medicaid.) To account for
the State-funded portion, the State agency estimated the taxi expenditures eligible for Federal
reimbursement (as reported on the Form CMS-64) by reducing the total taxi expenditures based
on the percentage of State-funded claims (i.e., not eligible for Medicaid) for the quarter. For the
sampling frame of 1,216 voucher payments, the State agency reported $4,856,948 as eligible for
Federal reimbursement out of the total taxi expenditures of $5,035,558. However, because it was
not practical to identify all of the trips that were State-funded, the vouchers in the sampling
frame included both Federal- and State-funded taxi trips.

SAMPLE UNIT

The primary sample unit was a voucher payment to a taxi vendor claimed during our audit
period. For each sampled voucher payment, the secondary sample unit was a taxi trip supported
by a trip report.

SAMPLE DESIGN

We used a stratified multistage sample design to review the Hawaii taxi expenditures. We first
stratified the sampling frame of voucher payments into three strata based on the total taxi
expenditures reported in the FAMIS, as shown in the following table:
                                                                                         Page 2 of 3


                                  Stratum        Payment Range
                                     1                $28 to $2,600
                                     2             $2,601 to $7,600
                                     3            $7,601 to $37,605

Next, for each stratum, we randomly selected voucher payments as our primary sample units.
For each of the selected voucher payments within a stratum, we selected a simple random sample
of 30 taxi trips.

SAMPLE SIZE

We selected a total of 34 voucher payments for our primary sample units: 17 voucher payments
in the first stratum, 8 voucher payments in the second stratum, and 9 voucher payments in the
third stratum. For our secondary sample unit, we selected a total of 914 taxi trip reports.

SOURCE OF RANDOM NUMBERS

We used the Office of Inspector General (OIG), Office of Audit Services (OAS), statistical
software to generate a set of single-stage random numbers for each of the 3 strata and each of the
selected 34 voucher payments.

METHOD OF SELECTING SAMPLE ITEMS

We sorted the voucher payments in each stratum by amount and voucher payment number, and
consecutively numbered the voucher payments contained in each stratum. Using the set of
random numbers generated for each stratum, we selected the corresponding voucher payments in
each stratum as the primary sample units.

For each voucher payment selected, we created a list of all taxi trips using the trip reports
supporting the voucher payment and consecutively numbered the taxi trips. Using the set of
random numbers generated for the sampled voucher payment, we selected the corresponding
frame item in each voucher payment as the sample trip to be reviewed (secondary sample unit).
If the list of taxi trips contained 30 or fewer trips, we reviewed all of the trips on the list.

Because the sampling frame included taxi trips for both federally eligible and State-funded
recipients and it was not practical to remove all of the trips for State-funded recipients, any
State-funded trip found in the sample was not replaced.

CHARACTERISTICS TO BE MEASURED

A sample unit (taxi trip) was determined to be unallowable if the purpose of the trip was not
related to a valid medical service or the invoice for the trip was submitted to the State agency
more than 12 months after the date of service. In addition, we considered as unallowable any
portion of the taxi trip charges that was (1) not based on the metered rates charged to the public
and/or (2) due to the addition of the State of Hawaii general excise tax.
                                                                                       Page 3 of 3


For any sample trip determined to be for a recipient who was State-funded (i.e., not eligible for
Medicaid), we did not review compliance with Federal and State requirements.

ESTIMATION METHODOLOGY

We used the OIG/OAS statistical software to estimate the amounts associated with unallowable
taxi trips. We used the lower limit of the 90-percent confidence interval to determine the
unallowable Federal reimbursement.
                        APPENDIX B: SAMPLE RESULTS AND ESTIMATES

                                                Sample Results

                                                    No. of
                             Value of                Taxi                                               Value of
                             Voucher     Voucher Trips for               Taxi                         Unallowable
         No. of              Payments    Payment Selected                Trip     No. of               Taxi Trips
        Voucher              (Federal    Sample    Voucher              Sample Unallowable              (Federal
Stratum Payments              Share) 1     Size    Payments              Size   Taxi Trips               Share)
   1         666               $496,644         17      747                 404         358                  $1,655
   2         385                 902,532         8    1,486                 240         221                     558
   3         165               1,356,844         9    2,196                 270         235                   2,230
 Total     1,216              $2,756,020        34    4,429                 914         814                  $4,443


                Estimates of Unallowable Federal Reimbursement for Taxi Trips
                     (Limits Calculated for a 90-Percent Confidence Interval)

                                    Point estimate                $608,081
                                     Lower limit                   403,217
                                     Upper limit                   812,945




1
    The total amount of $2,756,020 represents the Federal share of the 1,216 voucher payments totaling $4,856,948.
                                                                                                     Page 1 of3


                   APPENDIX C: STATE AGENCY COMMENTS 





NEIL ABERCROMBIE                                                                PATRICIA MCMANAMAN
   GOVERNOR                                                                           DIRECTOR

                                                                                BARBARA A. YAMASHITA
                                                                                   OEPUTY DIRECTOR




                                          STATE OF HAWAII
                           DEPARTMENT OF HUMAN SERVICES
                                        Office of the Director
                                            P.O. Box 339
                                     Honolulu, Hawaii 96809-0339



  May 2, 2012




  Ms. Lori A. Ahlstrand 

  Regionallnspector General for Audit Services 

  Office of Audit Services, Region IX 

  90_7th Street, Suite 3-650 

  San Francisco, California 94103

  Dear Ms. Ahlstrand:

  Enclosed is the Department of Human Services' responses and corrective action plan related 

  to your audit entitled Hawaii Claimed Unallowable Medicaid Reimbursement for 

  Nonemergency Medical Transportation (NEMT) Services Furnished by Taxi Providers, audit 

  number A-09-11-02047 dated March 21, 2012. We appreciate the opportunity to comment on 

  the audit report. 


  Sincerely,




  Patricia McManaman 

  Director 


  Enclosure




                                   AN EQUAL OPPORTUNITY AGENCY
                                                                                                    Page 2 of3




                                                                                            Enclosure

FINDINGS:

The State agency did not always comply with Federal and State requirements when claiming
Federal Medicaid reimbursement for NEMT services furnished by taxi providers. Specifically,
the State agency improperly claimed $494,903 (Federal share):

• 	 For the 914 taxi trips reviewed, the State agency properly claimed Federal reimbursement
    for 100 taxi trips. However, the remaining 814 taxi trips, totaling $4,443 were entirely
    or partially unallowable for Federal reimbursement. Specifically, for 107 taxi trips, no
    Medicaid medical services were provided. In addition. for 707 taxi trips, the State
    agency claimed amounts in excess of metered rates charged to the public. (For each trip,
    we disallowed the difference between the metered rate and the amount claimed.) Based
    on our sample results, we estimated that the State agency claimed $403,217 in 

    unallowable Federal reimbursement. 


• 	 For the 193 voucher payments totaling $698,911 that we reviewed separately, the State
    agency claimed $91,686 in unallowable Federal reimbursement for (1) payment made to 

    a taxi provider that was not approved to participate in the Hawaii Medicaid program or 

    (2) untimely submission of invoices related to a settlement agreement between the State 

    agency and a taxi provider. The agreement required the provider to submit invoices no 

    later than 90 days after the date of the agreement. 


The State agency claimed unallowable NEMT services because it did not have adequate policies
and procedures to ensure compliance with all Federal and State requirements for NEMT services.

In addition, the State agency did not correctly report on the Form CMS-64 the amount of taxi
expenditures that were eligible for Federal reimbursement. The State agency did not specifically
identify and exclude expenditures for taxi trips that were State-funded, such as taxi trips
provided to recipients not eligible for Medicaid. Instead, the State agency reduced its claim for
Federal reimbursement by a calculated estimate for the State-funded portion. According to
42 CFR § 430.30(c), the dispOSition of Federal funds may not be reported on the basis of
estimates. The State agency lacked internal controls to properly account for State-funded taxi
expenditures when claiming Federal reimbursement for NEMT services.

RECOMMENDATIONS:

We recommend that the State agency:

• 	 Refund to the Federal Government $494,903 (Federal share) for unallowable NEMT
    Services,

• 	 Strengthen policies and procedures to ensure compliance with Federal and State
    requirements for NEMT services, and


                                  AN EQUAL OPPORTUNITY AGENCY
                                                                                                Page 3 of3




• 	 Establish internal controls to properly account for State-funded taxi expenditures when
    claiming Federal reimbursement for NEMT services.

CONCURRENCE/CORRECTIVE AnION TAKEN OR PLANNED:

We concur with the auditor's fmdings. The Depanmcni of Human Services (DHS) has completed/or
plans the following corrective action for each of the recommendations listed above.

• 	 The DHS has refunded the $494,903 via a line lOA entry on the CMS-64 for the quaner ending
   March 31, 2012.

• 	 All NEMT services are coordinated via a case management company comracted by the DRS.
    Each quaner the case management company verifies with the DHS that each of the providers used
    are still active and in good standing. Also. the DRS-MOO-QUEST Division (MQD) will notify the
    contractor should any of the NEMT providers tenninate from         me
                                                                 program.

• 	 Under the current process all NEMT payments are made manually via the DAS-Fiscal
    Management Office. The DHS-MQD is exploring the possibility of having the NEMT providers
    submit a medical claim via HPMMlS. When processed via HPMMIS the claims will be verified
    against provider and recipient e1igibilily, pricing, and code edits. HPMMIS will have to be
    modified to accept these claims in addition to training providers to submit a medical claim. DHS
    plans to implement by January 1.2013 .




                                  ... N Eau...L OPPORTUNITV ...GENCY
